Management Report Prepared in Connection with the
Audit of the Inter-American Foundation’s Financial
Statements for the Fiscal Year Ended
September 30, 2001

Audit Report No. 0-IAF-02-005-F

March 20, 2002




                 Washington, D.C.


                             1
U.S. Agency for
 International
 Development

Office of Inspector General
Financial Audits Division


MEMORANDUM
FOR:                  Mr. David Valenzuela

FROM:                 IG/A/FA, Alvin A. Brown

SUBJECT:              Management Report Prepared in Connection with the Audit of the
                      Inter-American Foundation’s Financial Statements for the Fiscal
                      Year Ended September 30, 2001 (Report No. 0-IAF-02-005-F)

The enclosed management report prepared by Gardiner, Kamya & Associates, P.C. (GKA) in
connection with the Audit of the Inter-American Foundation’s Financial Statements for the
Fiscal Year Ended September 30, 2001, is provided for your information. The auditors made
three separate observations with three corresponding recommendations in the enclosed report.

The management report prepared by GKA is included in its entirety in Appendix I. Your
comments from the report are included in Appendix II. Based on the comments provided, we
consider final management decisions to have been reached on each of the three
recommendations included in this report.

We appreciate the cooperation and courtesies that your staff extended to my staff, and to
the GKA staff during the audit. If you have questions concerning this report, please
contact Andrew Katsaros at (202) 712-4902.

Enclosure (as stated)




                                               2
                      Appendix I

                      Page 1 of 7




INTER-AMERICAN

  FOUNDATION




MANAGEMENT LETTER

  FISCAL YEAR 2001





        3

                                                                                      Appendix I

                                                                                      Page 2 of 7




                       INTER-AMERICAN FOUNDATION
                           MANAGEMENT LETTER
                                        FY 2001
                          Table of Contents

                                                                           Page No.




Report Overview                                                            6


Condition No. 1 – Payroll Register and Payroll Costs Distribution Format   7

Condition No. 2 – Adoption of Checklist to Monitor Activities              8




                                             4
                                                                                Appendix I

                                                                                Page 3 of 7





To the Board of Directors and the President
Inter-American Foundation

We have audited the Principal Statements (balance sheet and the related
statements of net cost, changes in net position, budgetary resources and
financing, hereinafter referred to as “financial statements”) of the Inter-
American Foundation (IAF) as of and for the year ended September 30,
2001, and have issued an unqualified opinion thereon dated February 1,
2002. In planning and performing our audit of the financial statements of
the IAF, we considered its internal control structure in order to determine
our auditing procedures for the purpose of expressing our opinion on the
financial statements and not to provide assurance on the internal control
structure. We have not considered the internal control structure since the
date of our report.

During our audit, we noted certain matters involving the internal control
structure and other operational matters that are presented in this report for
your consideration. For your convenience, a description of the
organization of this letter is provided in the Report Overview Section.
These issues and recommendations, all of which have been discussed
with the appropriate members of IAF’s Management, are intended to
improve the internal control structure or result in other operating
efficiencies.

Our audit procedures are designed primarily to enable us to form an
opinion on the financial statements, and therefore may not bring to light
all weaknesses in policies or procedures that may exist. Our aim,
however, is to use our knowledge of the IAF gained during our audit to
provide comments and suggestions we hope will be useful to you. We
realize that due to the complex nature of many of the issues and the lead
time required to correct the situations noted, it is not practical to
implement most of our recommendations at one time or in a short period
of time.

We appreciate the cooperation and courtesies extended to us. We will
review the status of these comments during our next audit engagement. We
will be pleased to meet with you or your staff at your convenience to
furnish any additional information or to assist you in implementing the
recommendations.




                                 5
                                                                       Appendix I

                                                                       Page 4 of 7





This report is intended for the information and use of the management of
Inter-American Foundation (IAF), the Office of the Inspector General (OIG)
of the Agency for International Development, Office of the Management and
Budget (OMB), and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.

/s/

Gardiner, Kamya & Associates, P.C.

February 1, 2002.




                               6
                                                                                         Appendix I

                                                                                         Page 5 of 7




                          INTER-AMERICAN FOUNDATION (IAF)


                                   MANAGEMENT LETTER

                                    REPORT OVERVIEW




The Inter-American Foundation (IAF), a U.S. government corporation, was established pursuant to
part IV of the Foreign Assistance Act of 1969 (22 U.S.C. 290f (a)). The Foundation provides
financial support through grant or loan programs to local organizations in Latin America and the
Caribbean for self-help developmental projects designed to improve the social and economic
conditions of the people.

The Inter-American Foundation is governed by a nine member Board of Directors, each appointed
by the President of the United States of America, and confirmed by the Senate for six-year terms.
Under the Foreign Assistance Act, six board members are from the private sector, and three are
officials or employees of U.S. Government Agencies concerned with Inter-American affairs.
Currently, the three U.S. Government appointees are the Assistant Secretary of State for Inter-
American Affairs, the Assistant Administrator of the U.S. Agency for International Development,
and the U.S. permanent Representative to the Organization of American States.

During our audit of the financial statements of IAF, we noted other issues, not considered to be
material weaknesses or reportable conditions, involving the internal control structure and general
operations that are opportunities for strengthening internal controls and operating efficiency. These
issues and our recommendations thereon are described in detail in this report. Our recommendations
are designed to improve the accuracy of financial reporting, increase the efficiency of certain
managerial and operational processes, and/or enhance internal controls.

We encourage you to review the details provided and recommend that the recommendations be
implemented as soon as possible in order to strengthen the IAF’s internal controls and to augment
operating efficiencies.




                                                 7
                                                                                         Appendix I

                                                                                         Page 6 of 7




                             INTER-AMERICAN FOUNDATION

                                MANAGEMENT LETTER

                               Year Ended September 30, 2001




CONDITION No. 1

The reports that are provided by the U.S. Department of the Interior (USDI), the agency that
processes the payroll for IAF, should be modified to facilitate the easy retrieval, review and timely
recording of payroll expenses by pay period.

       (A)	    The Department of the Interior does not generate a payroll register that is easily
               retrievable by IAF.

During our audit of the payroll costs, we noted that a payroll register is not generated by the
processing agency for each pay period. Instead, individual records are kept for each employee for
each pay period. As a result, a record of all the employees who were paid for each pay period that
shows earnings, deductions, government contributions and net pay is not easily available for
review by management. To facilitate such a review, the processing agency must print a record for
each employee who was paid for that pay period and additional effort is required to collate and
summarize the details.

       (B)	    The Payroll Costs Distribution Data downloaded from the Department of
               Interior National Business Center (NBC) is not in the format that can be
               recorded in the general ledger.

During our audit, we noted that the payroll data prepared by USDI National Business Center
(NBC) is not in a format that allows direct posting to IAF's general ledger. As a result, IAF
personnel must manipulate the data before payroll costs distribution information is sent to Bureau
of Public Debt for posting to the general ledger.

RECOMMENDATIONS

       (A)	    We recommend that IAF request that USDI produce a detailed Payroll Register for
               each pay period, to facilitate the review and evaluation of the payroll and benefit
               expenses.

       (B)	    We recommend that the payroll costs distribution generated by the NBC should be
               in a format that can be posted directly to the general ledger.




                                                 8
                                                                                          Appendix I

                                                                                          Page 7 of 7




                              INTER-AMERICAN FOUNDATION

                                 MANAGEMENT LETTER

                                Year Ended September 30, 2001




CONDITION No. 2

An internal control checklist recommended by the OIG was not adopted as part of IAF’s internal
control policy to periodically monitor its accounting and reporting services provider.

During our review of findings and recommendations that were reported in prior years we noted
that IAF did not adopt an internal control checklist as part of its internal control policy to monitor
its accounting and reporting services provider. IAF had agreed to implement this procedure as
part of its corrective action plan to comply with recommendations made by the Office of the
Inspector General.

RECOMMENDATION

               We recommend that IAF develop and implement a policy to document its periodic
               monitoring, reviewing and evaluating activities to ensure that the accounting
               services provider is performing the agreed-upon functions in a timely manner.




                                                  9
                                                                                      Appendix II



Management                  Comments of the Inter-American Foundation (IAF)
Comments                    On Gardner, Kamya P.C. Draft Management Report


             General Comments

             We are pleased that no reportable conditions were identified during the audit of the
             Principal Financial Statements for the Fiscal Year Ended September 30, 2001. Our
             review of the two recommendations reported in the management report revealed that they
             center on services outsourced to other U.S. Government agencies.

             Below are our comments on the recommendations.

             Recommendation 1

                    A.	    We are currently exploring the possibility of the U.S. Department of
                           Interior’s (USDI) National Business Center (NBC) producing a detailed
                           Payroll Register as recommended. We have requested that USDI provide
                           us with cost estimates to determine the cost feasibility of this report. A
                           final determination as to whether the requested report warrants the
                           probable outlay of resources will be made after all the relevant facts have
                           been analyzed and evaluated.

                    B.	    It is not possible or practicable to have the payroll costs distribution
                           generated by NBC posted directly to the IAF’s general ledger. NBC and
                           BPD’s systems and data are not currently compatible. We have reviewed
                           proposals submitted by BPD to service our payroll needs. However, our
                           review and analysis found that the additional cost was not justifiable or
                           reasonable considering our limited resources.

             Recommendation 2

                    Although we found no written recommendation from the OIG recommending that
                    the IAF adopt an internal control checklist as part of its control policy to monitor
                    the accounting and reporting by the service provider, we are exploring the
                    feasibility of this suggestion. We do agree that it is good policy to have a
                    procedure in place that will monitor the accuracy of the data and reports.
                    However, we do not think it advisable for federal personnel to replicate work also
                    being done at public expense. A final determination as to the extent and nature of
                    a checklist will be made after the relevant facts have been analyzed and evaluated.




                                            10
